No. 19-631
In the

Supreme Court of the United States
William P. Barr, Attorney General, et al.,
Petitioners,
v.
American Association of
Political Consultants, Inc., et al.,
Respondents.

On Writ of Certiorari to the United States
Court of A ppeals for the Fourth Circuit

Motion to File Amicus Brief Out
of Time and Amicus Brief in
Support of Respondents
Jim Moseley
Gray Reed McGraw LLP
1601 Elm Street, Suite 4600
Dallas, TX 75201
(214) 954-4135
jmoseley@grayreed.com

S. Greg White
Counsel of Record
Gray Reed McGraw LLP
900 Washington Avenue,
Suite 800
Waco, TX 76701
(254) 342-3000
gwhite@grayreed.com

Attorneys for Amicus Curiae
ACA International, Inc.
296092

A
(800) 274-3321 • (800) 359-6859

To the Honorable Supreme Court of the United States:
This is a motion to permit the filing of a very short
amicus brief out of time. The brief is submitted by the ACA
International, Inc – an association of credit professionals
interested in the interpretation of the statute at issue in
this case.
There is good cause for permitting the late filing, and
the late filing will not delay the consideration of the merits.
The proposed amicus brief is being tendered at the same
time that this motion is submitted.
A brief history of the case
The Court granted the Petition for Certiorari on
January 20, 2020. The Petitioner’s Brief was filed February
24th. Eight amicus briefs supporting the Petitioner were
filed. The Respondent’s Brief was filed on March 25th. Nine
amicus briefs supporting the Respondent were filed. ACA
supported the Respondent’s Petition.
Good cause exists to permit this filing
After reading the briefs already filed on both sides,
ACA decided that there was little that it could add to the
discussion. It still wanted to have its voice heard in support
of the Respondent. ACA’s counsel called the Clerk’s office
to inquire about submitting a very short letter noting
its support of the Respondent, and explaining that full
briefing would only offer the same arguments that had
already been made. ACA felt that a short supporting
letter would relieve the Court of the burden of reading a
21st brief in this case.

Based on the conversation with the Clerk, ACA
submitted its letter, which has not been accepted for filing.
ACA was under the impression that the letter could be
accepted without printing the letter in booklet form. It
misunderstood, and has now submitted the brief in the
form required by the Rules. The fault here was ACA’s
misunderstanding, and that should not prevent the public
record from reflecting ACA’s support of the Respondent’s
position in this case.
ACA respectfully requests that the Court permit the
filing of the amicus brief out of time.
Respectfully submitted,
Jim Moseley
Gray Reed McGraw LLP
1601 Elm Street, Suite 4600
Dallas, TX 75201
(214) 954-4135
jmoseley@grayreed.com

S. Greg White
Counsel of Record
Gray Reed McGraw LLP
900 Washington Avenue,
Suite 800
Waco, TX 76701
(254) 342-3000
gwhite@grayreed.com
Attorneys for Amicus Curiae
ACA International, Inc.

1
Interest of Amicus Curiae
ACA International, Inc.
ACA International is a not-for-profit corporation
based in Minneapolis, Minnesota.1 Founded in 1939,
ACA represents nearly 3,700 members, including credit
grantors, collection agencies, attorneys, asset buyers
and vendor affiliates. ACA produces a wide variety of
products, services, and publications, including educational
and compliance-related information; and articulates the
value of the credit-and-collection industry to businesses,
policymakers, and consumers.
ACA company members range in size from small
businesses with a few employees to large publicly held
corporations. ACA company members collect rightfully
owed debts on behalf of other small and local businesses.
ACA members include businesses that operate within a
single town, city, or state and large national corporations
that do business in every state.
ACA members are an extension of every community’s
businesses. ACA members work with these businesses,
large and small, to obtain payment for the goods and
services already received by consumers. In years past,
the combined effort of ACA members has resulted in
the annual recovery of billions of dollars—dollars that
are returned to and reinvested and that would otherwise
1. No Party’s counsel authored this brief in whole or in
part. No Party or Party’s counsel contributed money intended
to fund preparation or submission of this brief. No person other than Amicus Curiae ACA International, its members,
and its counsel - contributed money to fund preparation or
submission of this brief. All parties have consented to the filing
of this brief.

2
constitute losses to member businesses. Without an
effective collection process, the economic viability of these
businesses—and, by extension, the American economy
in general—is threatened. Recovering rightfully owed
consumer debt preserves business; helps prevent job
losses; and reduces the need for tax increases to cover
governmental budget shortfalls.
Summary of the Argument
ACA supports the Respondents’ position in this case.
ACA has reviewed the brief filed by the Respondent, as
well as briefs filed by six separate organizations in support
of the Respondents. These briefs, and in particular the
briefs of the amici supporting the Respondent, voice
many of the same concerns that ACA would express in
an amicus brief.
Arguments and Authorities
ACA supported the Respondent’s position in this case
in another case where a Petition for Writ of Certiorari
was filed. In that case, No. 19-511, styled Facebook, Inc.
v. Noah Duguid, et al (in which the Government was an
Intervenor, and espoused the same position as it does in
this case), the Petition for Certiorari remains pending,
and concerns the same issues present in this case. ACA’s
position is set out in full in that Amicus Brief, and applies
just as strongly in this case.
Given that ACA has already expressed its position
on the issues in this case, it is appropriate to refer the
Court to that previously filed Brief as opposed to filing a
separate brief in this case expressing the same position

3
a second time. ACA believes that adding another amicus
brief in support of the Respondent would add a burden to
the Court and its staff that would not add substantially
to the careful discussion of the merits already on record.
Conclusion
For this reason, we ask that the Court take note
of ACA’s support of the Respondent for the reasons
reflected in its Facebook filing, and for the reasons already
expressed on the Respondent’s side in briefs already on
file.
Respectfully submitted,
Jim Moseley
Gray Reed McGraw LLP
1601 Elm Street, Suite 4600
Dallas, TX 75201
(214) 954-4135
jmoseley@grayreed.com

S. Greg White
Counsel of Record
Gray Reed McGraw LLP
900 Washington Avenue,
Suite 800
Waco, TX 76701
(254) 342-3000
gwhite@grayreed.com
Attorneys for Amicus Curiae
ACA International, Inc.

